No.

IN THE SUPREME COURT OF THE UNITED STATES

MARK JOSEPH DERRICO,
Petitioner

v.
STATE OF GEORGIA.

CERTIFICATE OF SERVICE
I, Andrew T. Mosley, II, a member of the Bar of this Court, certify that
on this 22nd day of October, 2019, I caused to be served by first-class mail,
postage prepaid, the enclosed Application for an Extension of Time in Which
to File a Petition for a Writ of Certiorari to the Supreme Court of Georgia in
the above proceeding on:
William Finch
Solicitor General
Forsyth County Solicitor’s Office
101 East Courthouse Sq.
Cumming, GA 30040
Counsel for Respondent
I further certify that all parties required to be served have been served.
/s/ Andrew T. Mosley, II
Andrew T. Mosley, II
Dated: October 22, 2019

